                                                                             Report No. DODIG-2014-097



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 3 1 , 2 0 1 4




                     Audit of the Transfer of DoD
                     Service Treatment Records to the
                     Department of Veterans Affairs




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Audit of the Transfer of DoD Service Treatment Records to
                                the Department of Veterans Affairs



July 31, 2014                                     Finding (cont’d)

Objective                                            •	 Navy – the Navy and Marine Corps did not maintain
                                                        sufficient data to determine results from January to
Our objective was to determine whether DoD              December 2013.       However, data provided for July
effectively transferred service treatment               and August 2013 indicated that of the 3,217 STRs
and personnel records to the Department of              transferred to the VA, 1,479 (46 percent) were not
Veterans Affairs. Specifically, we evaluated            timely. In addition, the Navy did not maintain the data
whether DoD made available timely and                   necessary to determine whether the STRs were complete.
complete service treatment records (STRs) to
the Department of Veterans Affairs (VA). Based    This occurred because DoD did not provide the Military
on discussions with Senate Appropriation          Departments with clear or comprehensive guidance concerning
Committee-Defense officials, we focused on        the STR transfer process, to include the DoD-VA agreed upon
the transfer of STRs and did not review the       procedure for certifying STR completeness. In addition, the
process for personnel records.                    Army Reserve and National Guard and the Navy had inefficient
                                                  procedures in place for transferring STRs. DoD’s failure to
                                                  consistently make timely and complete STRs available to the VA
Finding                                           likely contributed to delays in processing veterans’ benefit claims.
DoD did not consistently transfer timely and
complete STRs to the VA. Our results, by
Military Department, were as follows:
                                                  Recommendations
                                                  We recommend that the Under Secretary of Defense for Personnel
   •	 Army – of 96,224 STRs transferred to        and Readiness, in coordination with the Director, Defense Health
      the VA from January to December 2013,       Agency, revise DoD Instruction 6040.45, “Service Treatment
      74,470 (77 percent) were not timely         Record (STR) and Non-Service Treatment Record (NSTR) Life
      (transferred within 45 business days) and   Cycle Management,” October 28, 2010, to update the process for
      26,901 (28 percent) were not complete.      certifying STRs as complete and require the Military Departments
                                                  to perform annual reviews of STRs with service members to achieve
   •	 Air Force – of 45,912 STRs transferred to
                                                  STR completeness. We also recommend that the Commander,
      the VA from January to December 2013,
                                                  U.S. Army Medical Command and the Commander, U.S. Navy Bureau
      16,187 (35 percent) were not timely and
                                                  of Medicine and Surgery identify and resolve inefficiencies in the
      5,144 (11 percent) were not complete.
                                                  STR transfer process that delay the timely processing of STRs
                                                  for active duty and Reserve Component personnel.




Visit us at www.dodig.mil


                                                                       DODIG-2014-097 (Project No. D2014-D000RF-0054.000) │ i
                                                          FOR OFFICIAL USE ONLY

                                       Results in Brief
                                       Audit of the Transfer of DoD Service Treatment Records to
                                       the Department of Veterans Affairs




  Management Comments and
  Our Response
  Management     comments  partially   addressed  the                 However, the Under Secretary of Defense for Personnel
  recommendations. The Under Secretary of Defense for                 and Readiness did not provide actions to address the
  Personnel and Readiness agreed stating that a draft                 requirement for annual STR reviews and the Commander,
  DoD Instruction has been updated to incorporate the                 U.S. Navy Bureau of Medicine and Surgery, did not provide
  recommendations and that it will begin coordination in              management comments. Therefore, we request that the
  August 2014. The Chief of Staff for the Department of the           Under Secretary of Defense for Personnel and Readiness
  Army Office of the Surgeon General agreed stating that              and the Commander, U.S. Navy Bureau of Medicine and
  the Army has published STR timeliness requirements and              Surgery, provide comments by August 29, 2014.
  is providing training to Reserve Component personnel.




ii │ DODIG-2014-097 (Project No. D2014-D000RF-0054.000)
Recommendations Table
                                                       Recommendations           No Additional
                        Management                     Requiring Comment       Comments Required
Under Secretary of Defense (Personnel and Readiness)   2                       1.a, 1.b, 1.c, 1.d, 1.e
Commander, U.S. Army Medical Command                                           3
Commander, U.S. Navy Bureau of Medicine and Surgery    3

Please provide comments by August 29, 2014.




                                                            (Project No. D2014-D000RF-0054.000) DODIG-2014-097 │ iii
                                             INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                            4800 MARK CENTER DRIVE
                                         ALEXANDRIA, VIRGINIA 22350-1500

                                                                                             July 31, 2014

           MEMORANDUM FOR UNDER SECRETARY OF DEFENSE PERSONNEL AND
           		 READINESS
           		                DIRECTOR, DEFENSE HEALTH AGENCY
           		 AUDITOR GENERAL, U.S. ARMY
           		 NAVAL INSPECTOR GENERAL
           		 ASSISTANT SECRETARY OF THE AIR FORCE
           		                (FINANCIAL MANAGEMENT AND COMPTROLLER)

           SUBJECT:	 Audit of the Transfer of DoD Service Treatment Records to the Department of
           	         Veterans Affairs (Report No. DODIG-2014-097)

           We are providing this report for your review and comment. DoD’s failure to consistently make
           timely and complete Service Treatment Records available to the VA likely contributed to delays
           in processing veterans’ benefit claims. The Consolidated Appropriations Act of 2014, directs
           the DoD Inspector General, in coordination with the VA Office of the Inspector General, to
           examine the process and procedures in place for transmitting service treatment and personnel
           records from the DoD to the VA. The VA Office of the Inspector General will issue a separate
           report.

           DoD Directive 7650.3 requires that all recommendations be resolved promptly. We considered
           management comments on a draft of this report when preparing the final report. The Under
           Secretary of Defense for Personnel and Readiness and the Chief of Staff of the Department of
           the Army Office of the Surgeon General provided comments that were generally responsive to
           Recommendations 1.a, 1.b, 1.c, 1.d, 1.e, 2, and 3. However, we request additional comments from
           the Under Secretary of Defense for Personnel and Readiness for Recommendation 2. In addition,
           we request comments from the Commander, U.S. Navy Bureau of Medicine and Surgery for
           Recommendation 3. We should receive all responses to comments by August 29, 2014.

           We appreciate the courtesies extended to the staff.        Please direct questions to me at
           (703) 699-7331 (DSN 499-7331).




           	                                              Carol N. Gorman
           	                                              Assistant Inspector General
           	                                              Readiness and Cyber Operations




iv │ DODIG-2014-097
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Roles and Responsibilities_ _____________________________________________________________________2
Service Treatment Record Guidance_ __________________________________________________________2
Review of Internal Controls_____________________________________________________________________3

Finding. Service Treatment Records Not
Consistently Timely or Complete When Transferred
to Veterans Affairs___________________________________________________________________4
Army STR Timeliness and Completeness______________________________________________________4
Air Force STR Timeliness and Completeness__________________________________________________6
Navy and Marine Corps STR Timeliness and Completeness__________________________________6
Inadequate STR Guidance Contributed to Delays_ ____________________________________________7
Inefficient STR Transfer Procedures____________________________________________________________9
Increased Risk of Delays to Veteran’s Benefit Claims_ ______________________________________ 10
Implementing the Paperless STR Transfer Process Effects 2014 Timeliness
   and Completeness Results________________________________________________________________ 10
Recommendations, Management Comments, and Our Response__________________________ 12

Appendix
Scope and Methodology_______________________________________________________________________ 15
Use of Computer-Processed Data_____________________________________________________________ 16
Use of Technical Assistance___________________________________________________________________ 16
Prior Coverage _________________________________________________________________________________ 16

Management Comments_____________________________________________________ 17
Under Secretary of Defense for Personnel and Readiness__________________________________ 17
Department of the Army_ _____________________________________________________________________ 19

Acronyms and Abbreviations______________________________________________ 37



                                                                                                       DODIG-2014-097 │ v
                                                                                                                                   Introduction




Introduction
Objective
Our audit objective was to determine whether DoD was effectively transferring service
treatment and personnel records to the Department of Veterans Affairs (VA). We
initiated this audit in response to the Consolidated Appropriations Act of 2014, which
directs the DoD Inspector General (DoDIG), in coordination with the VA Office of the
Inspector General, to examine the process and procedures in place for transmitting
service treatment and personnel records from the DoD to the VA.

Based on discussions with Senate Appropriations Committee-Defense staff, we focused
the audit on the transmission of service treatment records (STR) to the VA and did not
review the transmission of personnel records. Accordingly, the focus of the audit was
to determine whether DoD was providing timely and complete STRs to the VA.


Background
According to DoD Instruction (DoDI) 6040.45, “Service Treatment Record (STR) and
Non-Service Treatment Record (NSTR)1 Life Cycle Management,” October 28, 2010,
an STR is a record of all essential medical, mental health, and dental care received
by service members during their military career. The STR is the official record used
to support clinical care and the evidentiary needs of the DoD, the VA, and the service
member. The VA uses the STR to support veteran benefit claims, to include Reserve
component service members who file benefit claims while still in the Reserves.

Before January 2014, the STR transfer process required Medical Treatment Facilities
(MTFs) to print all electronic health information stored in the Armed Forces Health
Longitudinal Technology Application (AHLTA)2 and file it in the patient’s paper
medical and dental record.                    The MTFs transferred the paper STRs to Army or
Air Force central cells,3 Navy personnel support detachments, (PSD) or Marine Corps
installation personnel administration centers. The central cells, PSDs, and installation
personnel administration centers performed additional processing such as adding the
DD Form 214, “Certificate of Release or Discharge from Active Duty,” August 2009,
to the STR before mailing it to the VA.

	1	
    A Non-Service Treatment Record is the medical, dental and mental health care received by non-Service members.
	2	
    AHLTA is an electronic medical record system used by DoD medical providers who enter progress notes, place orders, and
    document procedures performed.
	3	
    DoDI 6040.45 uses the term out-processing center instead of central cell when referring to the activities responsible for
    transferring STRs to the VA. Because DHA officials stated that future versions of DoDI 6040.45 will only refer to those
    activities as central cells, we elected to use the term central cell and not out-processing centers in this report.




                                                                                                                                DODIG-2014-097 │ 1
Introduction



                 In July 2013, the Assistant Secretary of Defense for Health Affairs (ASD[HA]) issued
                 a memorandum providing guidance to the Military Departments to initiate a
                 paperless process by January 1, 2014, for transferring STRs to the VA. Under this
                 process, the paper portion of the STR is digitized using the Healthcare Artifact and
                 Image Management Solution (HAIMS) and then merged with AHLTA data, enabling
                 DoD to provide the STR to the VA in a paperless manner. Instead of providing all STRs
                 to the VA, as was done under the previous STR transfer process, the VA downloads
                 the STRs directly from HAIMS, as needed to process veteran’s benefit claims.
                 The DD Form 214 is no longer included with the STR, because the VA accesses the
                 forms through a separate personnel system.


                 Roles and Responsibilities
                 The Under Secretary of Defense for Personnel and Readiness (USD[P&R]) is responsible
                 for prescribing policies, requirements, and responsibilities for the STR life cycle
                 management process, including the release of STR information from DoD to VA.
                 USD(P&R) oversees the implementation of and compliance with DoDI 6040.45. The
                 USD(P&R) delegated to ASD(HA) the responsibility for the release of STR information
                 to the VA. The ASD(HA) in turn, delegated this responsibility to the Director, Defense
                 Health Agency (DHA).

                 ASD(HA) enables the transfer of STR information from the Military Departments in
                 order to process entitlements and benefits for service members and veterans. ASD(HA)
                 also coordinates improvement and reengineering of STR information management
                 processes with the Secretaries of the military departments to enable efficient and
                 effective business practices within DoD as needed.


                 Service Treatment Record Guidance
                 DoDI 6040.45, establishes policy, assigns responsibility, and prescribes procedures
                 for implementing the STR life cycle management process.       DoDI 6040.45 requires
                 the Secretaries of the military departments to update respective Service regulations
                 and standardize the use of the term “service treatment record.” The instruction also
                 requires that STRs be transferred to the VA within 45 business days of the service
                 member’s retirement or discharge.      Specifically, the MTFs and Dental Treatment
                 Facilities (DTF) have 30 business days to provide the complete STR to the appropriate
                 central cell or PSD and the central cells or PSDs have 15 business days to complete




2 │ DODIG-2014-097
                                                                                            Introduction



the transfer to the VA. DoDI 6040.45 also requires the MTFs and DTFs to conduct
completeness checks of the medical, mental health, and dental records in preparation
for transfer to VA and conduct annual records reviews as an internal control for STR
accuracy and accountability.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses concerning the STR transfer process. Specifically, DoD did not
consistently transfer timely and complete STRs to the VA. In addition, the Army and
Navy had inefficient procedures in place for transferring STRs to the VA. We will
provide a copy of this report to the senior official responsible for internal controls at
the USD(P&R) and DHA, U.S. Army Medical Command, and the U.S. Navy Bureau of
Medicine and Surgery.




                                                                                        DODIG-2014-097 │ 3
Finding




                 Finding
                 Service Treatment Records Not Consistently Timely or
                 Complete When Transferred to Veterans Affairs
                 DoD did not consistently transfer timely and complete STRs to the VA. Our results, by
                 Military Department, were as follows:

                         •	 Army – of 96,224 STRs transferred to the VA from January to
                            December 2013, 74,470 (77 percent) were not timely (transferred within
                            45 business days) and 26,901 (28 percent) were not complete.

                         •	 Air Force – of 45,912 STRs transferred to the VA from January to
                            December 2013, 16,187 (35 percent) were not timely and 5,144 (11 percent)
                            were not complete.

                         •	 Navy – the Navy and Marine Corps did not maintain sufficient data
                            to determine results from January to December 2013.           However, data
                            provided for July and August 2013 indicated that of the 3,217 STRs
                            transferred to the VA, 1,479 (46 percent) were not timely. In addition, the
                            Navy did not maintain the data necessary to determine whether the STRs
                            were complete.

                 This occurred because DoD did not provide the Military Departments with clear
                 or comprehensive guidance concerning the STR transfer process, to include the
                 DoD-VA agreed upon procedure for certifying STR completeness.          In addition, the
                 Army Reserve, National Guard, and the Navy had inefficient procedures in place
                 for transferring STRs. DoD’s failure to consistently make timely and complete STRs
                 available to the VA likely contributed to delays in processing veteran’s benefit claims.



                 Army STR Timeliness and Completeness
                 The Army did not meet STR timeliness and completeness requirements for the
                 96,224 STRs transferred to the VA from January to December 2013. Specifically, of those
                 96,224 STRs, 74,470 (77 percent) were not transferred timely and 26,901 (28 percent)
                 were not complete.

                 To determine timeliness, we calculated the elapsed business days between the date
                 the service member separated from service and the date the central cell mailed the
                 STR to the VA. We grouped our results into three subcategories—records transferred



4 │ DODIG-2014-097
                                                                                                           Finding



within 45 business days, records transferred between 46 and 120 business days, and
records transferred to the VA in over 120 business days. See Table 1 for the Army
2013 timeliness results which demonstrate that less than 25 percent of the STRs were
transferred timely.

Table 1. Army Timeliness Results – January to December 2013
     STRs Transferred to VA              Number of STRs                   Percent of Total
 Within 45 business days                      20,057                             21
 Between 46 and                               32,916                             34
 120 business days
 Over 120 business days                       41,554                             43
 Timeliness Undeterminable*                    1,697                              2
    Total                                     96,224                            100

*We could not determine the timeliness for these records because the date of separation was not
recorded for these STRs.


Both the MTFs and the central cell contributed to the untimely STR transfers. For
example, during a site visit to an Army MTF in December 2013, we found several
boxes of STRs for service members who separated from the military as far back as
July 2011. According to the MTF staff, the central cell asked them to keep the STRs
because there was no room at the central cell and that the MTF could just wait
and process the STRs using the new paperless system that was to be in place after
January 1, 2014. At the central cell, the program manager stated that ensuring an
STR was complete took precedence over timeliness and that they would sacrifice
timeliness in an attempt to ensure completeness.

                               Although the central cell program manager stated that
                                   they concentrated on completeness, we identified that
            Although
           the central                28 percent of Army STRs mailed to the VA in 2013
          cell program                 were incomplete.         To determine completeness,
      manager stated that               we identified whether the STR contained three
     they concentrated on
  completeness, we identified           key components as required by DoDI 6040.45—a
    that 28 percent of Army             medical record, a dental record, and a separation
      STRs mailed to the                document.        We identified that 26,901 of the
       VA in 2013 were
                                      96,224 STRs were missing one or more of those key
          incomplete.
                                    components.        Of the 26,901 incomplete Army STRs,
                                 13,562 were missing a medical record, 14,174 were missing
                           a dental record, and 2,428 were missing a separation document.




                                                                                                  DODIG-2014-097 │ 5
Finding



                 Air Force STR Timeliness and Completeness
                 The Air Force did not meet STR timeliness and completeness requirements for the
                 45,912 STRs transferred to the VA from January to December 2013.                       Specifically,
                 16,187 (35 percent) were not timely and 5,144 (11 percent) were not complete.

                 As with our analysis of the Army records, we determined timeliness by calculating the
                 number of business days that elapsed between the date of service member’s separation
                 and the date the central cell mailed the STRs to the VA. See Table 2 for the Air Force
                 2013 timeliness results which demonstrate that 35 percent of the STRs processed
                 between January to December 2013 were late.

                 Table 2. Air Force Timeliness Results – January to December 2013
                        STRs Transferred to VA            Number of STRs                   Percent of Total
                     Within 45 business days                   29,694                              65
                     Between 46 and                             8,808                              19
                     120 business days
                     More than 120 business days                7,379                              16
                     Timeliness Undeterminable*                    31                               0
                       Total                                   45,912                             100

                 *We could not determine the timeliness for these records because the date of separation was not
                 recorded for these STRs.


                 Unlike the Army, the Air Force central cell personnel stated that they concentrated
                 on meeting timeliness requirements. For example, Air Force central cell personnel
                 stated that they often would transfer STRs without dental records because only a
                 small percentage of benefit claims were dental related. Our analysis of completeness
                 identified that 11 percent of the Air Force’s STRs were incomplete. Of the 5,144 STRs
                 we determined were incomplete, 1,071 were missing a medical record, 4,116 were
                 missing a dental record, and 113 were missing a separation document.


                 Navy and Marine Corps STR Timeliness
                 and Completeness
                 Because the Navy and Marine Corps did not have a centralized database to track
                 the STRs mailed to the VA, we could not get complete data from January through
                 December 2013 to analyze for timeliness or completeness. However, we were able
                 to obtain data on Navy STRs for July and August 2013, which indicated that of the
                 3,217 STRs transferred to the VA during those two months, 1,479 (46 percent) were




6 │ DODIG-2014-097
                                                                                                                                             Finding



not timely. See Table 3 for the Navy 2013 timeliness results which demonstrate that
nearly half of the STRs transferred were late.

Table 3. Navy Timeliness Results – July and August 2013
        STRs Transferred to VA                           Number of STRs                              Percent of Total
 Within 45 business days                                         1,738                                         54
 Between 46 and                                                  1,479                                         46
 120 business days
 Over 120 business days                                               0                                          0
      Total                                                      3,217                                        100



Inadequate STR Guidance Contributed to Delays
DoDI 6040.45 did not provide clear or comprehensive guidance concerning the STR
transfer process, which directly impacted STR timeliness and completeness. Specifically,
DoDI 6040.45 did not contain the DoD-VA agreed upon process for certifying STR
completeness, did not clearly address requirements for STR record reviews and
for forwarding STRs to the Military Department central cells, and did not include a
requirement for the military personnel community to provide copies of loss rosters4
to the MTF.

DoDI 6040.45 requires the MTF and DTF to certify that
STRs are complete before they are forwarded to the
                                                                                               DoD and
Military Department central cells. The instruction                                        VA agreed… each
includes examples of certification letters in                                           STR should contain a
which an MTF or DTF official certifies that the                                     DD Form 2963,… However,
                                                                                   DoDI 6040.45 was not revised
service member is discharged or retired and                                           to require use of the DD
that the MTF or DTF has no other medical or                                         Form 2963… MTF and DTF
dental records for that service member.                              In            officials were unaware of the
                                                                                    requirement and continued
June 2013, DoD and VA agreed that instead of
                                                                                       to use the certification
the certification letters, each STR should contain                                              letters.
a DD Form 2963, “Service Treatment Record (STR)
Certification.” However, DoDI 6040.45 was not revised
to require use of the DD Form 2963. MTF and DTF officials
at the sites we visited were unaware of the requirement. Any STRs transferred to
the VA with a certification letter instead of the DD Form 2963, the VA considered


	4	
      A loss roster is a list of all projected retiring and separating active duty and retiring and discharging reserve component
      service members.




                                                                                                                                    DODIG-2014-097 │ 7
Finding



                 incomplete. The VA also considered an STR incomplete if it contained a non-availability
                 letter, which DoDI 6040.45 allowed if a service member’s original medical or dental
                 record was not available. To reduce the number of STRs considered incomplete by the
                 VA, DoD should revise DoDI 6040.45 to require use of the DD Form 2963 for certifying
                 STR completeness as agreed to by DoD and VA.

                 DoDI 6040.45 requires that the Military Departments, including the Guard and
                 Reserves, conduct annual STR reviews with the service member to ensure STR
                 completeness. The instruction also lists other times reviews should be conducted,
                 to include discharge and permanent change of station, but does not state whether
                 those reviews are in addition to the annual reviews. DoDI 6040.45 calls for periodic
                 evaluations of the STR review process to ensure the effectiveness of review operations
                 for each Service-specific regulation. The MTFs we visited did not conduct annual
                 reviews. They stated they did not have the resources available to do so. In addition,
                 although the Service-specific regulations contained requirements to oversee the review
                 process, that oversight was not being conducted. USD(P&R) and DHA should implement
                 procedures to ensure that the Services are conducting oversight of the reviews.

                 Reviews of STRs are necessary because missing documents can prolong the time
                 needed for the VA to process a service member’s benefit claim. Documents might
                 not be available if a service member obtained medical or dental care from a civilian
                 provider or may be in a local database instead of in the paper STR or AHLTA. Further,
                 if the service member received mental health care, additional medical records may be
                 maintained in a restricted file. If a VA benefit claim is supported in total or in part by
                 information included in a mental health record and that documentation is not in the
                 STR, the VA will not have the necessary data to process the claim. Because the annual
                 records review is an important control to ensure that STRs are complete, USD(P&R)
                 and DHA should ensure that the Services are implementing the annual reviews and
                 conducting oversight of the reviews.

                 DoDI 6040.45 does not clearly state the roles and responsibilities for forwarding
                 STRs to the central cells. In Enclosure 3, paragraph 2.d.5 (b), the instruction states
                 that upon retirement or discharge, or at the end of Service, the MTF and DTF shall
                 transfer a certified complete STR packet to the applicable central cell. In Enclosure 3,
                 paragraph 2.d.4.a.8., the instruction states that MTF personnel shall transfer the
                 complete STR to the central cell no later than 30 days after discharge. At Enclosure 3,
                 paragraph 2.d.4.a.4., the instruction states that DTFs should provide the member’s
                 complete dental record to the central cell within 30 days of a member’s discharge.
                 Because the definition of an STR includes both the medical record and dental record,



8 │ DODIG-2014-097
                                                                                                  Finding



it appears that both the MTF and DTF are responsible for providing the complete
STR to the central cell, while at the same time the DTF is required to provide just the
dental record to the central cell. At the sites we visited, this guidance caused confusion
because the MTFs were asking the DTFs for the dental record so that the “complete”
STR could be transferred in one package to the central cell. However, the DTFs were
often not providing the dental record.      To potentially streamline the STR transfer
process and reduce confusion, DoD should revise DoDI 6040.45 to clearly identify the
party responsible for transferring the STR to the central cell.

Although DoDI 6040.45 requires the military personnel community to “regularly”
provide the MTF with personnel rosters to facilitate the annual medical and dental
records reviews, it does not require the military personnel community to provide the
MTF with loss rosters to facilitate the STR transfer process. The MTF uses the loss
roster, which identifies personnel who are retiring or otherwise being discharged,
to ensure that all STRs needing to be transferred to the VA are identified. However,
according to MTF officials, it sometimes takes months to receive the loss rosters, which
effects timeliness of separated service members’ STRs that have not been processed.
To ensure that the MTFs can provide timely STR, DoDI 6040.45 should be revised to
require the military personnel community to provide the MTF with loss rosters on a
weekly basis.


Inefficient STR Transfer Procedures
The Army Reserve, National Guard, and the Navy had inefficient procedures in place for
transferring STRs. Specifically, the Army Reserve and National Guard were scanning
STRs that were already available in an electronic system and the Navy was mailing
hard copy STRs to two different facilities before they were mailed to a third facility
for scanning into HAIMS.

The Army Reserve and National Guard personnel stated they were using the Health
Readiness Record (HRR) to electronically maintain medical and dental records.
However, they also kept duplicate paper records that were scanned into HAIMS when
the service member retired or was discharged.         HRR is an electronic health care
repository that contains results of annual health care assessments and information
from private physicians and dentists. Although the Army central cell has access to
HRR, the Army Reserve and National Guard units we visited were sending a paper
STR containing all of the HRR information to the central cell for scanning into
HAIMS. There is not an interface between HRR and HAIMS that would allow for an




                                                                                         DODIG-2014-097 │ 9
Finding



                 electronic data flow; however, the central cell could improve efficiencies by accessing
                 systems such as HRR, creating a PDF of the record, and uploading it into HAIMS.

                 The Navy was mailing its paper STRs to two different facilities in two different states
                 before it was mailed to a third facility for scanning into HAIMS. Naval Administrative
                 Memorandum 331-13, “Proper Transfer of Health Service Treatment Records (STRS)
                 of Transitioning Service Members to the Veterans Administration,” November 26, 2013,
                 directed Navy and Marine Corps MTF and DTFs to send STRs to the Naval Medical
                 Records Activity (NMRA), St. Louis, Missouri. According to BUMED officials, NMRA
                 then forwarded the STRs to the Navy Bureau of Medicine and Surgery (BUMED) in
                 Falls Church, Virginia, which then transported the STRs to a contractor facility in
                 Chantilly, Virginia, for scanning. A Navy Officer stated that the STRs are first mailed to
                 St. Louis because the Navy central cell will ultimately be located there and they wanted
                 the MTF and DTFs to be familiar with sending the STRs to St. Louis and not be confused
                 when the mailing address changes. A BUMED official stated that the St. Louis scanning
                 facility should be completed in late FY 2014 or early FY 2015. However, until that
                 facility is completed, the Navy could improve efficiencies by revising its guidance to
                 require the STRs be mailed directly to the scanning facility.


                 Increased Risk of Delays to Veteran’s Benefit Claims
                 DoD’s failure to consistently make timely and complete STRs available to the VA likely
                 contributed to delays in processing veteran’s benefit claims. The VA claims process
                 is contingent upon DoD providing sufficient evidence to support the veteran’s claim.
                 If the VA does not receive sufficient evidence to process a claim, the agency will
                 request additional information from the veterans’ service point of contact. In 2013,
                 the VA reported that 58 percent of benefit claims took 125 days or more to process.
                 Returning the claim to DoD for additional evidence adds to the processing time.
                 The VA’s goal for 2015 is to process benefit claims within 125 days or less. Therefore,
                 DoD must consistently provide timely and complete STRs to the VA to reduce the
                 number of claims returned for additional evidence and the amount of time before
                 eligible veterans receive their disability benefits.


                 Implementing the Paperless STR Transfer Process
                 Effects 2014 Timeliness and Completeness Results
                 As of January 1, 2014, the Military Departments were required to use the paperless
                 process for transferring STRs to the VA. To determine the effect of the paperless STR
                 transfer process on timeliness and completeness, we reviewed transfer data from




10 │ DODIG-2014-097
                                                                                                                                     Finding



January 1 through April 17, 2014. To determine timeliness, we used the standard
specified in the National Defense Authorization Act for FY 2014, which states that
as of January 1, 2014, DoD will make STRs available to the VA no later than 90 days
after the date of service members’ discharge or release. To determine completeness,
we identified whether the STR contained a medical record and a dental record
as the paperless process no longer requires that a separation document be included in
the STR.

Because factors such as training, staffing, and process implementation likely affected
the results, our results may not indicate future trends. However, the timeliness and
completeness rates did vary for some of the Military Departments when compared to
the paper STR transfer results for 2013. Specifically, timeliness rates worsened for
all three Military Departments and completeness rates worsened for the Army but
improved for the Air Force. Because data was not available, we could not determine
completeness rates for the Navy.

Only 2,310 of 13,740 (17 percent) Army STRs were timely. This was 4 percent lower
than the paper STR transfer results from 2013. Although 10,267 of 15,292 (67 percent)
Army STRs were complete, this was 5 percent lower than the paper STR transfer results
from 2013. The Army attributed the lower timeliness and completeness rates to delays
with HAIMS when scanning STRs, server capacity, training, and obtaining common
access cards5 for contractor personnel.

Only 494 of 1,802 (27 percent) Air Force STRs were timely. This was 38 percent lower
than the paper STR transfer results from 2013. However, 1,677 of 1,802 (93 percent)
Air Force STRs were complete, which was 4 percent higher than the prior process. The
Air Force central cell officials attributed the lower timeliness rates to a 10,000 STR
backlog at the central cell that developed because of the new paperless process. Central
cell officials described initial setbacks in training as well as obtaining common access
cards and background checks for contractor personnel.

For the Navy, only 2,803 of 12,620 (22 percent) of the records were made available
to VA timely. This is significantly less (32 percent) than transferred using the old
process. The Navy attributed the lower rates to delays with HAIMS when scanning
STRs and server capacity. The completeness rate for the Navy under the new process
was 7,121 of 12,620 (about 56 percent). However, because the Navy could not provide
completeness data for 2013 we could not compare the rate to 2014.

	5	
      A common access card is a form of DoD ID card which contractor personnel use to gain access to computer systems to
      process or scan STRs into HAIMS.




                                                                                                                           DODIG-2014-097 │ 11
Finding



                 The full impact of the paperless STR transfer process on timeliness and completeness
                 will not be known until the process stabilizes. However, implementing the new process
                 will not change the findings discussed in this report. Therefore, we have not modified
                 any of the report recommendations based on its implementation.            To ensure that
                 DoDI 6040.45 is revised to reflect the 90-day timeliness standard specified in the National
                 Defense Authorization Act for FY 2014, we added a recommendation to revise the
                 DoDI 6040.45 accordingly.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Under Secretary of Defense for Personnel and
                 Readiness revise DoD Instruction 6040.45, “Service Treatment Record (STR) and
                 Non-Service Treatment Record (NSTR) Life Cycle Management,” October 28, 2010,
                 in coordination with the Director, Defense Health Agency to include detailed
                 procedures for the Military Departments for making STRs available to the VA. At
                 a minimum, the revision should:

                          a.	 Update the process for certifying a service treatment record as
                            complete,

                          b.	 Update the timeline for making STRs available to the Department
                            of Veterans Affairs, reflecting the 90-day standard contained in the
                            FY 2014 National Defense Authorization Act,

                          c.	 Identify the responsible party for transferring STRs to the central cell,

                          d.	Require central cells to query all DoD systems containing service
                            members’ medical and dental information, such as the Health Readiness
                            Records system, to ensure service treatment records for Reserve
                            Component personnel contain a complete history of documented
                            healthcare, and

                          e.	 Require the military personnel community to provide loss rosters
                            to the Military Treatment Facilities on a weekly basis.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 The Under Secretary of Defense for Personnel and Readiness generally agreed,
                 stating that a draft DoD Instruction has been updated to include each of the




12 │ DODIG-2014-097
                                                                                              Finding



recommended actions and that it will begin coordination by mid-August. The Under
Secretary stated that the Secretary of Defense issued a mandate on June 23, 2014, to
measure STR timeline performance and report out weekly, with an objective to attain
current DoD guidelines instead of changing the STR timeline to 90 days in accordance
with the FY 2014 NDAA. The Under Secretary stated that the ongoing analysis, along
with an increased focus on STR compilation and certification, would better inform
the decision to change the STR timeline. The Under Secretary also stated that as an
alternative to the requirement for weekly loss rosters, monthly loss rosters are more
efficient to use in support of STR processing.


Our Response
Comments from the Under Secretary of Defense for Personnel and Readiness
addressed the recommendations. Although the Under Secretary proposes alternative
action with respect to STR guidelines and the loss rosters, the intent of the
recommendation is met and no further comments are required.


Recommendation 2
We recommend that the Under Secretary of Defense for Personnel and Readiness
in coordination with the Director, Defense Health Agency implement procedures
to ensure that the Military Departments perform annual reviews of STRs
with service members and conduct oversight of those reviews, to achieve STR
completeness in accordance with DoD Instruction 6040.45.


Under Secretary of Defense for Personnel and Readiness Comments
The Under Secretary of Defense for Personnel and Readiness agreed.


Our Response
Although the Under Secretary of Defense for Personnel and Readiness agreed with the
recommendation, the comments did not clearly indicate what procedures they would
use to ensure the completion of the annual reviews of STRs with the Service members
or when these procedures would be implemented. Therefore, we request the Under
Secretary of Defense for Personnel and Readiness provide additional comments to the
recommendation by August 29, 2014.


Recommendation 3
We recommend that the Commander, U.S. Army Medical Command, and the
Commander, U.S. Navy Bureau of Medicine and Surgery review the service




                                                                                    DODIG-2014-097 │ 13
Finding



                 treatment record transfer process for active duty Navy and Army reserve and
                 National Guard personnel to identify and resolve inefficiencies that delay the
                 timely processing of service treatment records.


                 Navy Bureau of Medicine and Surgery
                 The Commander, U.S. Navy Bureau of Medicine and Surgery, did not submit comments
                 to the draft report. Therefore, we request the Commander, U.S. Navy Bureau of Medicine
                 and Surgery provide comments on the recommendation by August 29, 2014.


                 Army Medical Command
                 The Chief of Staff for the Office of the Surgeon General responding for the Office of
                 the Surgeon General and the U.S. Army Medical Command agreed, stating that the
                 Army has made tremendous efforts to ensure complete STRs are transferred to the
                 VA. According to the Chief of Staff, the Army reached a 98 percent completion rate for
                 transferred records in November 2013, although acknowledging that timeliness often
                 suffered due to a lag in locating dental records. The Chief of Staff provided examples
                 of actions the Army has taken to improve timeliness. Those actions include publishing
                 guidance; conducting mandatory training, requiring the contractor to ensure that all
                 documents are scanned, hiring additional personnel, improving communications with
                 the Reserve Component units, and coordinating with VA to accept the HRR file for
                 Reserve Component personnel who file a claim while they are still in the military. The
                 Chief of Staff stated that the Office of the Surgeon General and MEDCOM are developing
                 standardized timeliness metrics for measuring the Army’s ability to provide STRs to
                 the VA in the required timeframe. Lastly, the Chief of Staff stated that the Office of
                 the Surgeon General and MEDCOM are working on a plan, in coordination with Army
                 Manpower and Reserve Affairs, to improve the timeliness of record uploads and
                 monitor performance. This plan is due to the Undersecretary of Defense for Personnel
                 and Readiness by August 1, 2014.


                 Our Response
                 Comments from the Commander, U.S. Army Medical Command addressed the specifics
                 of the recommendation and no additional comments are required.




14 │ DODIG-2014-097
                                                                                             Appendix




Appendix
Scope and Methodology
We conducted this performance audit from November 2013 through July 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our finding and conclusions based on our audit
objective. We concluded that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective.

To meet the audit objective, we met with personnel from USD(P&R), ASD(HA), DHA,
the Military Departments’ medical staff, and the VA Record Management Center. We
also met with personnel from the Military Departments’ central cells and military
treatment facilities to obtain STR data to evaluate whether complete STRs were
available to the VA within required timelines. Further, we met with medical personnel
from the Army and Air Force Reserves and National Guard and Navy Reserves to
review their STR transfer process.

We analyzed STR data from the Army and Air Force Health Treatment Record (HTR)
databases for 2013. According to Army and Air Force central cell officials, the Army
and Air Force use Microsoft Access HTR databases to track the STRs arrival at the
central cell. We used the HTR databases to identify a universe of all records processed
by the Army and Air Force in 2013. The Army HTR database showed that the Army
central cell mailed 96,224 records to VA in 2013.       The Air Force HTR database
showed the Air Force Records Disposition Center mailed 45,912 records to VA in 2013.
In 2013, the Navy did not use a centralized database to track STRs sent to VA. For
that reason, the Navy performed a manual data call and compiled data for July and
August 2013 into a Microsoft Excel spreadsheet file. According to this data, the Navy
mailed 3,217 STRs during these two months.

Using the HTR databases we obtained and analyzed Army and Air Force data for the
first 107 days of 2014. According to BUMED officials, the Navy central cell and Camp
Lejeune used Microsoft Excel files to manually record information on the STRs they
processed in 2014. We analyzed the data contained in these excel files to determine
whether STRs were timely and complete.




                                                                                      DODIG-2014-097 │ 15
Appendix



                 Use of Computer-Processed Data
                 We relied on data from the Army and Air Force HTR databases to support our audit
                 finding and conclusions. The Army and Air Force central cells use the HTR databases to
                 track receipt of separated members’ medical records at the Military Department central
                 cell, the assembly and contents of those records, and shipment of the records to the VA.

                 To assess the reliability of the data, we compared data from the HTR databases to
                 hardcopy medical treatment records at the Army central cell in San Antonio, Texas and
                 the Air Force central cell at Randolph Air Force Base, Texas. We determined whether
                 the HTR databases accurately recorded the date of separation and the contents of
                 each record (separation document, medical record, and dental record). Based on our
                 comparison, we concluded that the data were sufficiently reliable for assessing the
                 conclusions on completeness and timeliness.


                 Use of Technical Assistance
                 We obtained support from the DoD Office of Inspector General Quantitative Methods
                 Division (QMD) in developing a non-statistical sample to evaluate timely and complete
                 STRs.   QMD reviewed sampling data obtained from the Military Departments and
                 advised on the reliability testing procedures for the data.


                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO) issued one
                 report discussing information sharing between the DoD and the Department of
                 Veterans Affairs.    Unrestricted GAO reports can be accessed over the Internet
                 at http://www.gao.gov.


                 GAO
                 Report No. 12-992, “VA and DoD Health Care Department-Level Actions Needed to
                 Assess Collaboration Performance, Address, Barriers, and Identify Opportunities,”
                 September 2012




16 │ DODIG-2014-097
                                           Management Comments




Management Comments
Under Secretary of Defense for Personnel
and Readiness




                                                 DODIG-2014-097 │ 17
Management Comments



                 Under Secretary of Defense for Personnel
                 and Readiness (cont’d)




18 │ DODIG-2014-097
                         Management Comments



Department of the Army




                               DODIG-2014-097 │ 19
Management Comments



                 Department of the Army (cont’d)



                                         U.S. Army Medical Command (MEDCOM) and
                                            Office of the Surgeon General (OTSG)

                                               Comments on DODIG Draft Report
                             Transfer of DOD Medical Records to the Department of Veterans Affairs
                                             (Project No. D2014-D000RF-0054.000)


                      RECOMMENDATION 3: We recommend that the Commander, U.S. Army Medical
                      Command, and the Commander, U.S. Navy Bureau of Medicine and Surgery review the
                      service treatment record transfer process for active duty Navy and Army Reserve and
                      National Guard personnel to identify and resolve inefficiencies that delay timely
                      processing of service treatment records.

                      RESPONSE: Concur. As of August 2013, the Army has made tremendous efforts to
                      ensure complete service treatment records (STR) are transferred to the Department of
                      Veterans Affairs (VA).

                      As of 1 January 2014, Services no longer provide a paper medical record to the VA.
                      Medical documentation is uploaded into the Healthcare Artifact and Imaging
                      Management Solution (HAIMS), and accessed by VA personnel through an interface.

                      The Army has taken a number of actions to improve timeliness, including:

                         •   Formally publishing requirements for sending complete STRs in a timely manner
                             to the Army Medical Department Record Processing Center (ARPC) (see
                             attachment 1).

                         •   Conducting multiple mandatory training sessions with appropriate military and
                             dental treatment facility and Reserve Component personnel.

                         •   Requiring the contract vendor to ensure output (scanning/upload) matches input
                             (records received) at the ARPC.

                         •   Hiring additional ARPC staff to support requirements. We expect this action to
                             be complete by 1October 2014.

                         •   Standardizing communications with the US Army Reserve and Army National
                             Guard to help ensure a timely response to requests for records needed to
                             support VA claims. Further, the Defense Health Agency (DHA) coordinated with
                             the VA to allow the Army to use the Health Readiness Record (HRR) file as the
                             STR for Reserve Component personnel who are filing a claim while they are still
                             in the military. The Army began moving HRR files for this population into HAIMS
                             in May 2014. DHA is continuing collaboration with the VA to expand the sharing
                             of Army HRR files to include all Reserve Component STR files.



                                                                                                         Encl




20 │ DODIG-2014-097
                                                                                          Management Comments



Department of the Army (cont’d)



    •   Developing compliance metrics to provide a standardized view of the Army’s
        ability to provide STRs to the VA within the required timeline. Metrics will be
        available by 21 July 2014.

 In addition to these efforts, DOD recently directed the Services to create a
 comprehensive plan to improve timeliness of record uploads and monitor performance
 (see attachment 2). OTSG/MEDCOM is currently working on the directed plan in
 coordination with Army Manpower and Reserve Affairs, which is due to the Office of the
 Undersecretary of Defense for Personnel and Readiness by 1 August 2014.




                                             2




                                                                                                DODIG-2014-097 │ 21
Management Comments



                 Department of the Army (cont’d)




                                                   Attachment 1



22 │ DODIG-2014-097
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-097 │ 23
Management Comments



                 Department of the Army (cont’d)




24 │ DODIG-2014-097
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-097 │ 25
Management Comments



                 Department of the Army (cont’d)




26 │ DODIG-2014-097
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-097 │ 27
Management Comments



                 Department of the Army (cont’d)




28 │ DODIG-2014-097
                                      Management Comments



Department of the Army (cont’d)




                                  Attachment 2




                                             DODIG-2014-097 │ 29
Management Comments



                 Department of the Army (cont’d)




30 │ DODIG-2014-097
                                  Management Comments



Department of the Army (cont’d)




                  TAB A




                                        DODIG-2014-097 │ 31
Management Comments



                 Department of the Army (cont’d)




32 │ DODIG-2014-097
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-097 │ 33
Management Comments



                 Department of the Army (cont’d)




                                      TAB B




34 │ DODIG-2014-097
                                                                                           Management Comments



Department of the Army (cont’d)


  1. Percent of complete STRs that were uploaded within 45 business days:

    # of complete STRs that were uploaded during the report
                             week
                                                                           % of complete
      that were uploaded within 45 days from the date the
                                                                           STRs that were
           Service member was released from Service                   =
                                                                           uploaded within 45
                                                                           days
      Total number of complete STRs that were uploaded
                during the same report week



  2. Average number of days to upload complete STRs into HAIMS:

      The sum total of the number of days for each record
        between release from Service and the date the
                                                                           Average number of
     complete STR was uploaded for all the complete STRs
                                                                           days to upload
          that were uploaded during the report week                   =
                                                                           complete STRs into
                                                                           HAIMS
      Total number of complete STRs that were uploaded
                during the same report week



  3. Single Point of Entry (SPoE) Responsiveness:
     a. Total number of requests received in the report week
     b. Total number of requests answered in the report week
     c. The average length of time it took to answer the requests that were answered during the
         report week


    The sum total of the number of days it took to provide an
  answer for each of the answers that were provided during the
                                                                           Average number of
                           report week
                                                                      =    days it took to
                                                                           answer a request
          Total number of requests that were answered
                  during the same report week


     d. # of pending requests:
        1) > 30 days
        2) > 60 days
        3) > 90 days




                                                                                                  DODIG-2014-097 │ 35
Management Comments



                 Department of the Army (cont’d)


                                                               Report Template

                      Service: ______________                            Date of Report: ___________

                      Report Week: 1 ______________                      Person preparing the report and contact
                                                                         information:

                      Email to: osd.pentagon.ousd-p-r.mbx.dvco@mail.mil, or fax to (703) 614-1243


                      Record                                         1. Percent uploaded
                      Timeliness              Total number of        within 45 business             2. Average number
                                              records                days                           of days to upload
                      Active
                      Guard
                      Reserve


                      3. SPoE Responsiveness
                      a. Total number of requests received
                      b. Total number of requests answered
                      c. Average number of days to answer
                      d.(1) Number of pending requests older than 30 days
                      d.(2) Number of pending requests older than 60 days
                      d.(3) Number of pending requests older than 90 days
                      e. Remarks (optional, use continuation sheet if necessary):




                      1
                          For reporting purposes, report weeks run from Saturday through close of business on Friday




36 │ DODIG-2014-097
                                                                    Acronyms and Abbreviations




Acronyms and Abbreviations
    AHLTA Armed Forces Health Longitudinal Technology Application
  ASD(HA) Assistant Secretary of Defense for Health Affairs
   BUMED Navy Bureau of Medicine and Surgery
      DHA Defense Health Agency
      DTF Dental Treatment Facility
   HAIMS Healthcare Artifact and Image Management Solution
      HRR Health Readiness Record
      HTR Health Treatment Record
      MTF Medical Treatment Facility
    NMRA Navy Medicine Records Activity
      PSD Personnel Support Detachment
      STR Service Treatment Record
 USD(P&R) Under Secretary of Defense for Personnel and Readiness
       VA Department of Veterans Affairs




                                                                               DODIG-2014-097 │ 37
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
